WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 21-5929

Jean Lynn Lillie

v.

Iowa

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
□
✔ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):
Signature
Date:

10/15/21

(Type or print) Name

Firm

Kevin Cmelik
□ Mr.
□ Ms.
✔

□ Miss

Iowa Attorney General's Office/Criminal Appeals Division

Address

1305 E. Walnut Street, Hoover Building - 2nd Floor

City & State Des Moines, Iowa
Phone

□ Mrs.

Zip

50319

515-281-6075

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

Jean Lynn Lillie
2560 Jewell Ave.
Anthon, IA 51104

CC:

